United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 48

February 2003   Semiannual Report
                to Congress
                FY 2002—Second Half
i
Overview of USDA and OIG


To help the reader better understand the context in               • The Department works to harness the Nation’s
which we audit and investigate the programs and                     agricultural abundance with a goal of ending hunger
operations of the Department, this section outlines the             and improving nutrition and health in the United
missions of USDA’s agencies and the role OIG fulfills.              States and in many other places around the world. It
Agriculture provides tangible products that are essential           administers the food stamp and other nutrition
to sustain life, health, and happiness. The overriding              assistance programs, and links scientific research to
USDA mission is to enhance the quality of life for the              nutritional needs. The Food and Nutrition Service
American people by supporting agriculture. At OIG, we               (FNS) works to increase food security and reduce
perform a complementary function that is integral to                hunger by providing children and low-income people
USDA’s mission—we take as our motto and our                         with access to food, a healthy diet, and nutrition
purpose, “Ensuring the Integrity of American                        education. The Center for Nutrition Policy and
Agriculture.”                                                       Promotion develops and promotes science-based
                                                                    dietary guidance and economic information for
This Department plays a role of great breadth and                   consumers and professionals in health, education,
magnitude in American life, both at home and abroad.                industry, and the media.
USDA’s hundreds of programs often appear in
unexpected places and ways. OIG is a vital organization           • USDA ensures that the Nation’s commercial supply
whose mission dovetails with that of the Department.                of meat, poultry, and egg products is safe,
While we do not make policy or run programs, our                    wholesome, and correctly labeled. It also plays a key
auditors do their best to ensure that both policy and               role in the President’s Council on Food Safety and
programs are formulated and carried out properly, and               has been instrumental in coordinating a national food
our investigators, as the primary law enforcement arm               safety strategic plan. The Food Safety and Inspection
of the Department, investigate significant criminal                 Service (FSIS) sets standards for food safety;
activities involving USDA programs, operations, and                 inspects meat, poultry, and egg products; and
personnel.                                                          informs the public about food safety issues. FSIS
                                                                    also facilitates the management of U.S. activities
HIGHLIGHTS OF USDA AGENCIES                                         pertaining to the Codex Alimentarius Commission, an
                                                                    international organization created by the United
When President Abraham Lincoln signed the legislation               Nations to promote the health and economic interests
creating USDA in 1862, he called it the “The People’s               of consumers while encouraging fair international
Department.” It touches all of our lives, every day, from           trade in food. FSIS belongs to a number of national
city to suburb, and small town to farm.                             and international organizations, including the Meat
                                                                    and Poultry Advisory Committee Staff and National
• USDA helps keep America’s farmers and ranchers in                 Advisory Committee on Meat and Poultry Inspection,
  business as they face the uncertainties of weather                as well as the National Advisory Committee on
  and markets. The Farm Service Agency (FSA) helps                  Microbiological Criteria for Foods.
  ensure the well-being of U.S. agriculture through the
  administration of farm commodity programs; farm                 • USDA facilitates the domestic and international
  operating, ownership, and emergency loans;                        marketing of U.S. agricultural products and ensures
  conservation and environmental programs;                          the health and care of animals and plants. The
  emergency and disaster assistance; domestic and                   Agricultural Marketing Service (AMS) facilitates the
  international food assistance; and international export           strategic marketing of agricultural products in
  credit programs. The Foreign Agricultural Service                 domestic and international markets, while ensuring
  (FAS) opens, expands, and maintains global market                 fair trading practices and promoting a competitive
  opportunities through international trade,                        and efficient marketplace. USDA agencies are active
  cooperation, and sustainable development activities.              participants in setting international and national
  The Risk Management Agency (RMA) provides                         standards, through international organizations and
  agricultural producers with the opportunity to achieve            Federal-State cooperation. For example, AMS
  financial stability through effective risk management             provides services to promote quality, including
  tools, such as crop insurance.                                    grading, quality standards, and certification.




                                                            iii
  The Animal and Plant Health Inspection Service                 • If we are to have a strong agricultural sector, indeed,
  (APHIS) protects America’s animal and plant                      a strong Nation, we need to have vibrant rural
  resources by safeguarding them from exotic invasive              communities. Approximately 60 million people live in
  pests and diseases, monitoring and managing pests                rural America. USDA enhances their ability to
  and diseases existing in the United States, resolving            develop, grow, and improve their quality of life by
  trade issues related to animal and plant health, and             targeting financial and technical resources to areas of
  ensuring the humane care and treatment of animals.               greatest need, through activities of greatest potential.
  The Grain Inspection, Packers and Stockyards                     The Rural Business-Cooperative Service (RBS)
  Administration (GIPSA) facilitates the marketing of              provides financing and technical assistance to help
  livestock, poultry, meat, cereals, oilseeds, and                 build competitive businesses and establish and
  related agricultural products, and promotes fair and             sustain agricultural cooperatives. The Rural Housing
  competitive trading practices. GIPSA also provides               Service (RHS) provides financing and technical help
  Federal grading standards and a national inspection              for needed community facilities and housing for very
  and weighing system for grain and oilseeds.                      low to moderate income areas. The Rural Utilities
                                                                   Service (RUS) provides financial and technical
• USDA provides help to farmers and ranchers to                    assistance so rural areas can have modern,
  promote the health of the land through conservation              affordable electricity, telecommunications, public
  programs administered by the Natural Resources                   water, and waste removal services.
  Conservation Service (NRCS) and FSA. NRCS
  provides national leadership in a partnership effort to        OIG’S ROLE IN USDA
  help people conserve, maintain, and improve
  America’s natural resources and environment. NRCS              Helping to identify and correct questionable practices
  provides leadership for conservation activities on the         and bring criminals to justice adds value to the
  Nation’s 1.6 billion acres of private and other non-           Department’s programs and operations. OIG conducts
  Federal land. USDA is directly involved with 191               and supervises audits and evaluations, as well as
  million acres of national forests and grasslands under         investigations and law enforcement efforts relating to
  the stewardship of the Forest Service (FS), the                USDA’s programs and operations. Auditors are most
  largest agency in the Department.                              interested in promoting economy, efficiency, and
                                                                 effectiveness. Investigators concentrate on preventing,
• USDA provides research, analysis, and education to             detecting, and thwarting crimes.
  assist individuals and communities, and improve
  agricultural products. The Agricultural Research               We perform an array of work that is as diverse as USDA
  Service (ARS) works to provide the scientific                  itself. Audit work might include visiting food stamp
  knowledge and technologies needed to ensure the                retailers, reviewing crop insurance claims, reviewing
  viability of American agriculture. The Cooperative             inspection controls at meat packing plants, and
  State Research, Education, and Extension Service               analyzing financial statements and reports. We also
  (CSREES) works with land-grant universities,                   audit programs to ensure that disaster assistance goes
  historically black colleges and universities, Hispanic-        to those who suffered losses and need help. As Federal
  serving institutions, Native American institutions, and        law enforcement officers, special agents in OIG carry
  other universities and public and private                      firearms, make arrests, and conduct searches. Criminal
  organizations to advance research and education in             investigators may work on cases involving assault and
  the food and agricultural and related sciences. The            threats (including workplace violence), theft, smuggling,
  Economic Research Service (ERS) is USDA’s                      bribery, extortion, embezzlement, child pornography,
  principal social science research agency. The                  food tampering and threats against the food supply,
  National Agricultural Statistics Service (NASS)                false claims, misuse of loan funds, or other fraud
  serves the basic agricultural and rural data needs of          against the Government.
  the country by providing statistical information and
  services to farmers, ranchers, agribusinesses, public
  officials, and others.




                                                            iv
Overall, our activities better ensure the Department’s
protection of the consumer, production agriculture, the
public, and USDA employees, and we save the
Government money. Criminal activity in USDA
programs, waste, and abuse are our enemies.
Taxpayers expect and deserve to have their money
benefit those who are entitled to it. Funds for improperly
implemented programs can otherwise be properly used.
Every misused dollar could have gone to someone truly
deserving or been returned to the U.S. Treasury. Based
on our audit work this reporting period, management
officials agreed to recover $21 million and put an
additional $144 million to better use. Our investigative
efforts resulted in $30 million in recoveries, fines,
restitutions, claims established, and cost avoidance.
Our investigations produced 255 indictments and 233
convictions. This report covers the period April 1
through September 30, 2002.




                                                             v
Contents


Message From the Inspector General ..................................................................................................................                            i
Overview of USDA and OIG ...................................................................................................................................                   iii
   Highlights of USDA Agencies ..............................................................................................................................                  iii
   OIG’s Role in USDA ............................................................................................................................................             iv
Contents ..................................................................................................................................................................   vii
Homeland Security .................................................................................................................................................             1
   Front-Line Vulnerabilities .....................................................................................................................................             1
   Investigating Sabotage and Threats ....................................................................................................................                      2
Information Technology ........................................................................................................................................                 3
   Spotlight on ... Information Technology ...............................................................................................................                      3
Food Safety .............................................................................................................................................................       4
   Protecting the Food Supply .................................................................................................................................                 4
Public Corruption ...................................................................................................................................................           5
Federal Crop Insurance .........................................................................................................................................                7
   Risk Management Agency ...................................................................................................................................                   7
Feeding Programs ..................................................................................................................................................             8
   Food Stamp Program ..........................................................................................................................................                8
   Child Nutrition Programs ......................................................................................................................................              9
   Special Supplemental Nutrition Program for Women, Infants, and Children .......................................................                                            11
Program Integrity Investigations ..........................................................................................................................                   12
Financial Management and Accountability .........................................................................................................                             13
   Government Performance and Results Act .........................................................................................................                           13
   Financial-Related Audits ......................................................................................................................................            13
Summaries of Audit and Investigative Activities ................................................................................................                              15
Statistical Data .......................................................................................................................................................      16
   Audits Without Management Decision .................................................................................................................                       16
   Indictments and Convictions ................................................................................................................................               23
   Office of Inspector General Hotline ......................................................................................................................                 24
   Freedom of Information Act and Privacy Act Requests .......................................................................................                                25
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans ..................................................................................................................                         26
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ............................................................................                                          27
Appendix III: Summary of Audit Reports Released Between
   April 1 and September 30, 2002 ........................................................................................................................                    28




                                                                                        vii
Homeland Security


As described in our last two Semiannual Reports to             National Association of State Universities and Land-
Congress, one of OIG’s chief missions is to ensure that        Grant Colleges. The task force acknowledged the need
the Department maintains the safety and security of the        for Federal Governmentwide policies and guidance. We
American food supply and protects the U.S. agricultural        have coordinated this review and our other efforts with
infrastructure from possible harm due to the accidental        an interagency task force of OIG personnel from the
or intentional introduction of foreign pests and diseases.     U.S. Departments of Health and Human Services
The events of September 11, 2001, and the subsequent           (HHS), Defense, and Veterans Affairs. We coordinated
anthrax attacks gave new urgency to the issues of              most closely with HHS, which has been conducting
security over USDA’s infrastructure and the agricultural       similar reviews at universities.
economy.
                                                               Further, after extensive coordination with and feedback
We continued to work on a number of Homeland                   from OIG, USDA issued a departmental regulation on
Security reviews to assess the vulnerability of agencies’      security policies and procedures at its biosafety level-3
assets and evaluate their responses and preemptive             facilities. This is the first major effort by USDA to issue
actions after the events of September 11, 2001. In             departmentwide biosecurity policies and procedures.
addition to the work described below, we have a                (The Department is also working on the draft policies
number of ongoing Homeland Security reviews that               and procedures for its other laboratories and technical
involve Rural Development (RD), FS, NRCS, and USDA             facilities excluding biosafety level-3 facilities.) The
grain and other commodity inventories.                         affected USDA agencies have been developing
                                                               corrective actions in response to our report and in
APHIS is responsible for inspecting agricultural products      response to the new departmental policies and
entering this country from abroad to detect and intercept      procedures on biosecurity. Moreover, any effective
foreign pests or diseases that could threaten U.S.             implementation of these corrective actions will entail a
agriculture. We are in the process of completing a             major change in the approach by the agencies’ staff. To
review of this APHIS activity, focusing on the adequacy        ensure that the current impetus is carried forth
and effectiveness of its operations to prevent or              effectively, we have planned followup reviews to
minimize the introduction of harmful, exotic pests and         evaluate and verify whether these facilities have
diseases into the United States. After the events of           properly implemented their corrective actions.
September 11, 2001, we expanded our review to
consider the possibility of an intentional introduction into
                                                                FRONT-LINE VULNERABILITIES
this country of organisms harmful to the food supply.
We continued to examine the departmental permit
controls over the transshipment—both domestically and          Smuggler Convicted
from abroad—of biohazardous agents.
                                                               We seized 65 pounds of Witchweed (Striga asiatica)
We began fieldwork to test controls at USDA facilities         when we executed search warrants at the warehouse
throughout the country in two major areas. One effort is       and retail establishment of a man still on probation for a
assessing security controls over chemical and                  prior felony smuggling conviction. The smuggler is
radioactive materials, and the other is assessing              awaiting sentencing after he pled guilty in August 2002
controls over plant variety protection and germplasm           to conspiracy to commit a variety of offenses, including
storage, addressing particularly the possible terrorist        smuggling and violating probation. Witchweed is a
threat to those repositories. We also began the second         parasitic noxious weed that attacks corn, sorghum,
phase of evaluating security over biological agents (and       sugarcane, and other grass crops and that would have
chemical and radioactive materials) at research                devastated agriculture in the Western United States if
facilities, specifically those receiving funding from          dispersed. We worked this case as part of our ongoing
USDA, which include both institutions of higher learning       involvement in the Interagency Import Task Force
and private laboratories. As part of the latter effort, we     directed by the U.S. Attorney for the Northern District of
met and solicited assistance from a task force                 California.
established by the Experimental Station Committee on
Organization and Policy, which is a committee of the




                                                                                                                         1
Man With Terrorist Links Sentenced in Multiprogram
                                                             INVESTIGATING SABOTAGE AND THEFTS
Fraud Case

As part of the Joint Terrorism Task Force directed by       • OIG conducted an investigation of an attempt to
the U.S. Attorney for the District of Oregon, we worked       sabotage the potable water system at the Plum
with the Bureau of Alcohol, Tobacco and Firearms              Island Animal Disease Center (PIADC), where
(BATF) to follow up on a search warrant that BATF had         dangerous animal diseases are studied. Water is
previously served on the residence of a Palestinian man       crucial for operating the boilers, creating steam to run
from Lebanon. He stated that he had trained with              the decontamination system on the island and
Palestinian guerilla groups, made references to the           ensuring waste is sanitized and environmentally safe,
terrorist group Hamas, and had prominently circled            as well as for fire fighting and animal care. The water
September 11, 2001, on his calendar. The search found         problem was corrected at an estimated cost of about
$20,000 in cash and personal financial records that           $37,000, but circumstances surrounding it warranted
conflicted with information he provided when he applied       our further investigation. The Federal Bureau of
for food stamps and other welfare benefits in Oregon.         Investigation (FBI) later joined the investigation. An
                                                              employee of a contractor at PIADC eventually
Our investigation showed that, while on public                confessed to having turned off the valves to 9 of the
assistance and claiming to be unemployed, the man             10 fresh water wells on the island and subsequently
made five overseas trips in 18 months, including trips to     pled guilty to Federal charges of tampering with
Denmark, Italy, and Lebanon. He became the target of          operations at PIADC.
investigations by several other law enforcement
agencies as other crimes were detected, and we              • The news media reported that a highly virulent strain
determined a loss to the Government of approximately          of Actinobacillus pleuropneumoniae (APP)—which
$65,000, including $18,000 in food stamp and Special          causes swine pneumonia—was stolen from a
Supplemental Nutrition Program for Women, Infants,            laboratory at Michigan State University which had
and Children (WIC) benefits. The subject was convicted        received about $750,000 in USDA funding since
on 10 counts of fraud against various Federal programs        1996 to develop vaccines against the bacteria. OIG
in addition to the weapons charges. The subject was           agents, the FBI, and university police found that no
sentenced to 30 months in prison and ordered to make          theft had actually occurred and that the APP strain
restitution of almost $42,000. The subject’s naturalized      reported to be stolen is no more virulent than
citizenship was revoked, and the Immigration and              naturally occurring APP. The agents continue to work
Naturalization Service (INS) flagged his immigration          with the U.S. attorney’s office in pursuing Federal
status.                                                       charges.

Former Grocery Store Owners Ordered To Pay Over
a Half Million Dollars in Restitution

Two former Jordanian owners of a small grocery store
in South Bend, Indiana, were sentenced to 41 and 27
months’ incarceration and restitution of $585,000 after
they were found guilty of food stamp trafficking and
conspiracy to commit food stamp fraud. One owner
was an illegal alien, the other was in the United States
on a student visa, and neither was permitted to work. In
a 3-year period, the store redeemed over $700,000 in
food stamp coupons, while paying only $272,000 to
suppliers. The former owner with the student visa has
married a U.S. citizen and, according to INS, is not
deportable. The other is deportable but has appealed
                                                            Michigan State University lab on the day of the reported theft. Photo
his sentence and is awaiting the conclusion of his          courtesy of the Michigan State University Police Department.
appeal. INS has been made aware of this matter.



2
• In November 2001, a routine early morning patrol            Government-owned vehicle that contained ground-
  found incendiary devices placed against the walls of        penetrating radar equipment. The stolen equipment
  an FS research building and a university forestry           was used to detect underground rock formations,
  building at Michigan Technological University. Both         water tables, and utilities. The estimated value of the
  devices were deactivated without incident and sent to       stolen equipment and vehicle was $60,400. A man
  the Michigan State Police crime lab. A joint                was subsequently apprehended in Georgia driving
  investigation with many agencies found a detailed           the stolen vehicle. The man, who was on State
  manual on how to build and deploy this kind of device       probation in Georgia at the time of the Florida theft,
  posted on an Internet Web site supported by a direct        pled guilty to interstate transportation of a stolen
  action environmental terrorist group.                       vehicle. He was sentenced to 13 months in jail,
                                                              3 years’ probation, and $9,465 in restitution. His
• A joint NRCS and FSA office in Florida was                  probation was also revoked, and he was sentenced
  burglarized of computers, related accessories, and a        to 2 years in a Georgia prison.


 Information Technology (IT)                                USDA’s Departmental Administration (DA), OIG noted
                                                            several material weaknesses and an overall inability to
                                                            adequately protect assets and sensitive information
  SPOTLIGHT ON ... INFORMATION                              from fraud and misuse. Implementation of OIG’s
  TECHNOLOGY                                                recommendations will protect DA’s Privacy Act-
                                                            protected data, as well as bring DA into compliance
 The dependence on IT and Internet technologies has         with OMB Circular A-130 and Presidential Decision
 exposed USDA’s billions of dollars in assets and its       Directive 63 (Critical Infrastructure Protection).
 critical infrastructure to extraordinary vulnerabilities
 stemming from automated intrusions. Office of              Rural Development manages over $85 billion in direct
 Management and Budget (OMB) Circular A-130                 and guaranteed loans; as expected with this huge
 (Management of Federal Information Resources) and          amount of funds, RD must ensure that its IT
 the Government Information Security Act directed           infrastructure is protected against intrusion or misuse.
 Federal agencies to ensure that adequate and               Since 1997, OIG has issued various audit findings to
 appropriate security measures are in place to protect      RD regarding its IT security weaknesses, which have
 these assets, as well as to ensure the continuity of       included 470 high- and medium-risk security
 normal operations. After the events of September 11,       vulnerabilities. Our recommendations were agreed to
 2001, protecting IT assets is even more important as       following a January 16, 2002, Management Alert to
 attacks against our technology infrastructure are          RD.
 capable of crippling organizations.
                                                            It is also necessary for OIG to maintain an IT skill base
 USDA’s IT assets include sensitive information that        to investigate crimes against USDA. OIG investigators
 could negatively affect millions of people, such as        often seize computers and data files for evidence.
 market-sensitive data on the agricultural economy and      Excellent examples include two joint investigations
 commodities, signup and participation data for             with the FBI to find USDA employees accessing child
 programs, personal information on customers and            pornography on Government computers. In these
 employees, and confidential financial data. Though the     cases, the OIG Computer Forensics Unit worked with
 Department has been proactive in strengthening its         our criminal investigators and found that, in two
 information security, OIG continues to identify            unrelated investigations in Arkansas and Texas, two
 deficiencies in various security measures.                 NRCS employees were accessing child pornography
                                                            via computer at work. The Arkansas employee, a
 Information technology audits are a necessary function     District Conservationist, pled guilty to possession of
 in ensuring the safeguarding of data and the integrity     child pornography. His sentencing is pending. The
 of systems. OIG worked closely with the Office of the      Texas NRCS employee has been charged in Federal
 Chief Information Officer (OCIO) to buttress existing      court with the receipt of child pornography, and his trial
 controls, as well as to improve the existing               is pending. OIG has seven other ongoing
 departmentwide security plan. OIG also actively audits     investigations of USDA employees for suspected
 individual agencies within USDA to confirm the             possession of child pornography on their Government
 adequacy of IT protections. Following an audit of          computers.



                                                                                                                         3
Food Safety


                                                            Korean Food Wholesaler Sentenced for Importing
    PROTECTING THE FOOD SUPPLY
                                                            Misbranded Food

Ongoing Work Concerning Meat and Poultry Recalls            Our investigation determined that a Korean food
                                                            wholesaler illegally imported thousands of pounds of
In June 2000, we issued our Food Safety Initiative, a       meat dumpling products from South Korea, mislabeled
series of audits to determine whether the Food Safety       as vegetable dumplings, and distributed them to
and Inspection Service’s meat and poultry inspection        retailers in New York City, California, and Maryland.
program remains effective under the science-based           Importing meat products from South Korea is prohibited
Hazard Analysis and Critical Control Point (HACCP)          due to possible Foot and Mouth Disease contamination.
system. We reviewed HACCP implementation,                   The corporation pled guilty, was sentenced to probation,
laboratory analyses, foreign imports, and the               and was ordered to pay a $100,000 fine. In addition to
compliance program that carried over from the previous      the current case, from 1988 to 1996 the corporation had
system. FSIS had taken positive steps, but more             been caught five times by USDA regulatory agencies for
needed to be done in all 4 areas reviewed, and we           illegally importing meat products. These prior instances
made 80 recommendations in total to that end. We now        had resulted in destroyed product and small fines.
have work underway to determine what actions FSIS
has taken to address these recommendations and their        Overtime Controls Need Improvement
effectiveness. We also have work underway focusing on
FSIS’s Recall Operations where meat or poultry              FSIS did not have adequate controls in place for
products are found to be adulterated. The need for this     overtime charged by field inspectors. The FSIS national
review was highlighted by recent recalls in one plant of    office had not updated policies on overtime claims and
19 million pounds of ground beef adulterated with an E.     had given each district the autonomy to establish its
coli strain and 27.4 million pounds of ready-to-eat         own policies and controls. Supervisory approvals of time
poultry products in another plant adulterated with          and attendance reports were not performed or
Listeria monocytogenes.                                     documented, and prior written approval of overtime
                                                            worked was not required. As a result, there was a lack
Company Convicted and Fined for Distributing                of assurance that the inspectors’ overtime claims were
Adulterated Meat Product                                    accurate and that the overtime reported was actually
                                                            worked.
A joint investigation by OIG and the FSIS compliance
staff revealed that, on multiple occasions, a large meat-   FSIS had not established adequate controls for billing
distributing warehouse in North Carolina sold               plants for reimbursable overtime for inspections and
adulterated meat and poultry product to a salvage meat      was not taking aggressive or effective collection action
dealer, who then reconditioned it to sell for human         on overdue bills for overtime services. We found that
consumption. A surprise inspection by OIG and FSIS          FSIS continued to provide overtime and holiday
also revealed unsanitary conditions at the warehouse.       inspection services for delinquent plants in violation of
Two criminal informations were filed for Federal Meat       current regulations. In the 3 districts we visited, we
Inspection Act violations. The warehouse agreed to pay      found that 40 plants with delinquent accounts totaling
a $100,000 fine, donate 40,000 pounds of unadulterated      $990,000 were still receiving overtime inspection. We
product to a not-for-profit organization, and establish a   found that aggressive collection actions were not taken
quality control program in coordination with FSIS.          on plants with delinquent accounts, including those that
                                                            were suspended or which had been withdrawn from
Nebraska Man Convicted and Sentenced to Prison              inspection service. As a result, FSIS did not have an
for Tampering With Food                                     adequate collection system to aggressively pursue
                                                            delinquencies of $7 million.
As followup of a matter previously reported, a Nebraska
man was sentenced to 40 months in prison. He had            We recommended that FSIS strengthen its procedures
been found guilty in Federal court of tampering with        for monitoring, reporting, and collecting for overtime
food products by inserting sewing machine needles in        services.
meat, fruit, and bakery items in an Iowa grocery store.



4
Public Corruption


Another continuing priority for OIG is the investigation of
criminal acts committed by USDA employees. The
percentage of wrongdoers is small, but to maintain the
public trust, those who commit crimes must be brought
to justice. During the past 6 months, public corruption
investigations resulted in 17 convictions of current or
former USDA employees and 48 personnel actions.
Descriptions of some recent investigations follow.

APHIS Employee, Guilty of Several Crimes, Awaits
Trial for Murder

An OIG investigation of an alleged accidental shooting
of an APHIS maintenance employee at an APHIS
facility in Utah developed into an investigation of a
teenage girl’s murder. The employee had reported that
he had been shot by an unknown assailant while on             OIG employees assisting in excavation of APHIS site where homicide
                                                              evidence was found. OIG photo.
duty. Our investigation found that the employee had
shot himself with a Government-owned weapon he had
                                                              FS Employee Guilty of Setting Devastating Colorado
taken from the APHIS facility without authorization. We
                                                              Fire
further found that the employee had stolen about
$50,000 worth of Government property.
                                                              As widely reported in the news media, an FS forestry
                                                              technician was indicted in June 2002, and has since
During the investigation, through coordination with the
                                                              pled guilty to both Federal and State charges, for setting
Sheriff’s Department, the APHIS employee became a
                                                              the largest forest fire in Colorado history. Before it was
suspect in the disappearance of a 15-year-old female
                                                              contained, the fire, known as the Hayman Fire, covered
whom he knew. Continued investigation revealed that
                                                              over 137,000 acres, an area greater than the Denver
the employee had inexplicably dug and refilled several
                                                              metropolitan area. This fire is estimated to have cost the
deep holes on the APHIS research facility grounds
                                                              Government more than $23 million just in timber losses,
around the time the girl disappeared. Excavation of the
                                                              with long-term forest rehabilitation costs and private
dig sites found dismembered remains, later determined
                                                              property losses estimated at many millions of dollars
to be those of the missing teen. Based on this discovery
                                                              more.
and other relevant evidence, the APHIS employee was
arrested and charged with murdering the girl. The joint
                                                              During the investigation by OIG and FS investigators,
OIG and Sheriff’s Department investigation revealed
                                                              the employee’s account of how the fire started was
that the employee had also committed several sexual
                                                              questioned. When investigators confronted her, the
assaults on the APHIS research grounds and had
                                                              employee admitted that she had lied about the origin of
sexually assaulted at least 35 women and girls over the
                                                              the fire and how it was discovered, and that she had
past 15-year period.
                                                              indeed started the fire. The employee was arrested by
                                                              OIG and removed from her FS employment. Sentencing
The employee initially pled guilty to theft of Government
                                                              is pending in both Federal and State court.
property and unlawful sexual activity with a minor, and
was sentenced in Utah State Court to serve 10 years in
prison, fined $14,595, and ordered to pay restitution of
$49,621. He subsequently pled guilty to murder in the
first degree and is awaiting sentencing.




                                                                                                                               5
                                                            ARS and APHIS Employees Plead Guilty to Work-
                                                            Related Drug Charges

                                                            • During a search of a methamphetamine lab near
                                                              Pocatello, Idaho, the Idaho State Police recovered
                                                              lab paraphernalia and discovered shipping boxes
                                                              with address labels made out to the USDA Research
                                                              Lab in Aberdeen, Idaho. The methamphetamine lab
                                                              operator admitted that an ARS laboratory technician
                                                              had supplied him with glassware and iodine. OIG
                                                              worked with the State Police to identify seized items
                                                              as USDA property, as well as other possible
                                                              receivers of stolen USDA property. The ARS
                                                              employee resigned, pled guilty to one count of
Hayman Fire, summer 2002. FS photo.
                                                              manufacturing and possessing a controlled
                                                              substance, and was sentenced to 6 months’
Three Embezzlers Sentenced
                                                              incarceration followed by 3 years’ probation,
                                                              including 6 months’ home detention.
• In Henry County, Kentucky, a former FSA farm loan
  manager was sentenced to 18 months’
                                                            • A New Mexico former APHIS employee who was
  imprisonment, 3 years’ supervised release, and
                                                              involved in a scheme to smuggle marijuana into the
  $242,500 in restitution after he pled guilty to making
                                                              United States from Mexico pled guilty to possession
  four farm loans to fictitious persons over a 2-1/2 year
                                                              of marijuana with the intent to distribute. Fifty-five
  period and concealing his illegal activity by creating
                                                              pounds of marijuana was concealed in truck tires
  phony promissory notes and deposit agreements. He
                                                              after being smuggled from Mexico through a cattle-
  used the embezzled funds primarily to pay personal
                                                              crossing facility where the employee worked. The
  loans and invest in the stock market.
                                                              employee routinely crossed the Mexican border to
                                                              inspect cattle in gathering pens. This was a joint
• An FS secretarial assistant in Pennsylvania was
                                                              investigation with the U.S. Customs Service and the
  sentenced in Federal court to 13 months’
                                                              Southwestern New Mexico Drug Task Force.
  incarceration and ordered to make $233,576 in
  restitution after she pled guilty to embezzling about
  that amount of FS funds over a 3-year period. Our
  investigation found that, from April 1996 through
  September 2000, the employee embezzled funds
  from 17 different FS procurement accounts by using
  the names of other FS employees on checks from
  those accounts and depositing them in four bank
  accounts she set up. The employee resigned.

• A former Agricultural Research Service supervisor in
  Maryland was convicted of grand theft for embezzling
  over $20,000 during a 6-month period in 2000. She
  used Government-issued travel cards to obtain cash
  advances from ATMs and make other purchases.
  She paid the resultant travel card bills from
  Government convenience check accounts assigned
  to two employees she supervised and tried to
  disguise some of the expenditures as training
  expenses. The supervisor was terminated from
  Federal employment, sentenced to probation, and           Concealed in tires, bulk marijuana retains shape after removal. OIG
  ordered to pay restitution.                               photos.



6
Federal Crop Insurance


                                                          had a 100-percent share of the crop, but some of the
 RISK MANAGEMENT AGENCY (RMA)
                                                          landlords admitted they also had oral agreements with
                                                          the producer to share in the crop or the insurance
Extending Insurance Coverage to a High-Risk Crop          proceeds. These oral agreements violated the crop
Costs USDA $21.1 Million                                  insurance contract. Based on the written leases, the
                                                          producer received 100 percent of more than $5.5 million
RMA approved crop insurance coverage for fall             in insurance proceeds. Because the producer’s policy
watermelons in its 1999 watermelon crop insurance pilot   covered both spring and fall plantings, we questioned
program for three south Texas counties. RMA did this      both the producer’s spring indemnities ($1.4 million) and
even though our audit report this period disclosed        fall indemnities ($5.5 million).
evidence that this crop was not suitable to south Texas
and was unlikely to produce a harvestable fruit. As a     The insurance agent who sold the producer his
result, questionable indemnities totaling about           watermelon insurance policy had also leased land to the
$21.1 million were made on fall watermelons in the        producer. The agent was aware that his agreement
three Texas counties.                                     would require him to report his participation in the
                                                          insured farming operation to the insurance company,
Virus infestation caused by a whitefly and cooler         but he did not. His business relationship with the
temperatures in the fall season reduced to only 5 to      producer netted his farming business over $1 million,
10 percent the chances of a fall watermelon crop          three times the average payment received by the other
making it to harvest. Because RMA personnel did not       custom farmers growing watermelons for the producer.
perform adequate research, the issue of fall watermelon   The insurance agent’s son also acted on behalf of the
suitability in south Texas was not addressed in the       producer, pursuing additional land for the producer to
Texas program development package. By offering            lease for fall watermelons that were insured through the
protection on this high-risk crop, RMA created a “moral   father’s insurance agency.
hazard,” which resulted in significant increases in
plantings of watermelons in 1999 in south Texas. RMA      RMA officials agreed to seek an Office of the General
officials had estimated that 2,430 acres would be         Counsel (OGC) opinion to determine whether the
insured in Texas; the ultimate total was almost 50,000    producer’s insurance contract should be considered
acres.                                                    void and RMA should collect the $6.9 million that was
                                                          paid to the producer for crop year 1999 losses. If the
One producer in Hidalgo County, Texas, whose spring       interaction of the insurance agent and the producer is
watermelon acreage did not exceed 790 acres, claimed      considered a conflict of interest, appropriate action
a loss on over 6,600 acres of fall watermelons. This      should be taken against the agent and his son. In
producer entered into written leases and custom           addition, RMA officials agreed to add a provision to the
farming agreements with 19 Hidalgo County landlords       common crop insurance policy to require evidence that
for the extra acreage but misrepresented his share in     the producer incurred expenses to grow the crop.
the fall crop. The written leases showed the producer




                                                                                                                     7
Feeding Programs


                                                          Three Sentenced in $15 Million Food Stamp and
    FOOD STAMP PROGRAM (FSP)
                                                          WIC Fraud Case

Monitoring of EBT System Continues                        In a case previously reported, a man in Cleveland, Ohio,
                                                          was sentenced to prison for 3 years 5 months, and his
Currently, 47 States and the District of Columbia use     wife was sentenced to 3 years’ probation after they both
Electronic Benefits Transfer (EBT) systems to deliver     pled guilty to their involvement in a scheme to commit
food stamp benefits. Forty-two of the systems have        an estimated $15 million in food stamp and WIC fraud
been implemented statewide, including the District of     since 1995. A third participant in this scheme has been
Columbia. Nearly 85 percent of all FSP benefits are       sentenced to 41 months’ imprisonment. These
being issued via EBT. During this semiannual period,      individuals also forfeited approximately $2.5 million in
we completed EBT systems audit work in Arkansas and       assets to the Government. Two other individuals
Michigan. The EBT systems were successfully               indicted in the scheme became fugitives; one was
implemented in both States; however, controls needed      recently arrested in Detroit. This investigation was
to be strengthened in some areas.                         worked jointly with nine other Federal and State law
                                                          enforcement agencies.
• Arkansas—The State agency needed to improve its
  controls to (1) provide for routine oversight of EBT    In other large-scale food stamp trafficking cases this
  system activity, including reviewing management         reporting period:
  reports; (2) reconcile FSP benefits the State
  authorized daily to benefits the EBT system             • Newark, New Jersey: The owner of a business
  deposited in recipients’ accounts and to reconcile        claiming to be a wholesale warehouse club was
  daily the requests retailers made for FSP                 sentenced to 4 months in prison, was ordered to pay
  reimbursements to the disbursements the EBT               over $660,000 in restitution to USDA, and forfeited
  system made to retailers; (3) maintain adequate           $25,000 to the Government after he pled guilty to
  documentation for user authorizations, remove             food stamp fraud. The business redeemed more than
  terminated employees’ access in a timely manner,          $1.3 million in paper food stamps in a 19-month
  assign appropriate access levels to users, and review     period, largely for other food stamp traffickers.
  the continued need for EBT system access; and (4)         Wholesale operations cannot redeem food stamps.
  label expunged benefits (benefits removed for             The owner had lied on the food stamp application
  nonuse) properly on management reports submitted          about the nature of his business (as well as his
  to the Food and Nutrition Service.                        previous history when he said he had never been
                                                            disqualified from FSP when he actually had).
• Michigan—Controls were needed to ensure system
  security by denying access to the system by former      • Michigan City, Indiana: Two brothers, a father and
  employees—three former employees of the State             a son, and two owners of two grocery stores were
  agency still had an active logon identification. The      sentenced to various prison terms and ordered to pay
  State agency also needed to have a permanent              restitution of $515,000. The two stores conspired
  process in place to monitor its EBT system. Although      from 1994 through 2000 to redeem more than $3
  the EBT system went statewide on July 1, 2001, the        million in food stamp benefits illegally.
  State agency has not yet decided which of the
  processor or State-generated reports would be           • Bessemer, Alabama: The owner of a discount meat
  needed to effectively manage the EBT system and           market forfeited $100,000 in cash to the Government
  FSP. Adding to this indecision was the lack of            when he pled guilty to conspiring to traffic in EBT
  oversight and guidance by the FNS regional office in      benefits worth between $500,000 and nearly
  ensuring that a system was established or a               $700,000 from May 2000 through November 2001.
  timeframe was agreed to when the process would be         The owner was sentenced to serve 1 year 1 day in
  implemented. We made a series of recommendations          Federal prison and 24 months’ supervised probation,
  to address these issues.                                  and pay over $49,000 in restitution to USDA. A
                                                            former store employee has also entered a plea and
                                                            was sentenced to serve 10 months in Federal prison
                                                            and 24 months’ supervised release. He was also

8
   ordered to pay over $49,000 in restitution jointly and              stamp recipients. As of September 30, 2002, Operation
   severally with the owner.                                           Talon had resulted in 8,281 arrests of fugitive felons
                                                                       during joint OIG, Federal, State, and local law
• Augusta, Georgia: A co-owner of a store was                          enforcement operations throughout the country. Serious
  sentenced in U.S. district court to 15 months in prison              crimes perpetrated by those arrested include homicide-
  and ordered to pay $366,000 in restitution to USDA                   related offenses (murder, attempted murder,
  after he pled guilty to EBT fraud and trafficking                    manslaughter), sex offenses (child molestation, rape,
  charges. During the investigation, approximately                     attempted rape), kidnapping/abduction, assault,
  40 EBT recipients admitted to trafficking at the store               robbery, and drug/narcotics violations.
  on occasion.
                                                                       Inaccurate and Unsupportable FSP Administrative
Woman Uses False Identity To Fraudulently Obtain                       Costs Claimed by California
Food Stamp Benefits
                                                                       We conducted an audit in California to determine the
As a result of a joint investigation with the U.S. State               accuracy of FSP administrative costs claimed by the
Department, a woman and her husband were found                         State and the allowability of those costs. We found that
guilty of using another woman’s identity to obtain                     claims were not always accurate and the costs were not
$24,000 in duplicate food stamp benefits and medical                   always supportable. The California State agency
assistance from Maryland and Washington, D.C. They                     claimed about $8.5 million in prior fiscal years’
were also involved in a scheme to falsely obtain a birth               expenditures in fiscal year (FY) 2000, resulting in an
certificate from the District of Columbia to claim minor               overstatement of its FY 2000 claim. Although the State
children dependents for welfare benefits and to obtain                 agency may retroactively submit a claim, funds
U.S. passports for a minor child. Both subjects were                   appropriated for those years may not be available. In
sentenced to prison and given fines and restitution                    addition, the State agency could not provide
totaling $22,600. INS is considering deportation upon                  documentation to support its claim of about $518,000
their release. (The husband had become a U.S. citizen                  for management evaluations. Furthermore, at two of the
fraudulently, and the wife is a permanent resident.)                   three county offices that we reviewed, we identified over
                                                                       $67,000 of unallowable costs charged to FSP.
                                                                       Examples of these costs included microwave ovens,
                                                                       catering costs for celebrations, training costs unrelated
                                                                       to FSP, settlements for lawsuits against the county, and
                                                                       “marriage license fees.” The FNS regional office
                                                                       concurred with our recommendations for corrective
                                                                       action.


                                                                        CHILD NUTRITION PROGRAMS


                                                                       Food Service Management Companies Unduly Profit

                                                                       The lack of clear instructions from FNS, in conjunction
                                                                       with inadequate oversight by State agencies and school
                                                                       food authorities, allowed food service management
                                                                       companies to reduce their costs by retaining benefits
One of two homes, valued at $600,000, owned by a woman and her         intended for school food authorities. Five of the eight
husband who used false identity to obtain food stamps illegally. OIG
photo.
                                                                       management companies we reviewed nationwide
                                                                       improperly received over $6 million in benefits, either in
Arrests Continue in Operation Talon                                    the form of purchase discounts or USDA-donated
                                                                       commodities, which were intended to benefit the school
Operation Talon was designed and implemented by                        food authorities’ nonprofit food services.
OIG to locate and apprehend fugitives who are food


                                                                                                                                9
The management companies profited by using USDA-               analysis showed that improvements were needed in the
donated commodities without properly crediting the             computer system controls over program payments and
school food authorities for the commodities’ value. FNS        operations. The systems did not always identify or
did not require States and school food authorities to          prevent claims from being paid when it appeared that
include contract provisions requiring the companies to         they were based on enrollment rather than actual meals
credit the value of the commodities, even though               served (block claiming). We found indications of block
Federal regulations required that commodities solely           claiming at all six sponsors reviewed. We identified
benefit and be used in a school food authority’s               provider payments, totaling about $2.4 million, where all
nonprofit food service operation. The management               or part of the claimed amounts were apparently block
companies also benefited by retaining the discounts and        claims. In addition, the computer systems did not
rebates they received on purchases made for their food         always identify questionable claims where providers
service operations. The companies amended,                     claimed meals every single day in the month, including
eliminated, or ignored terms included in the requests for      weekends and holidays. We also identified claims paid
proposal issued by the school food authorities. Contrary       where they (1) were for the wrong payment rate, (2)
to FNS regulations, the management companies were              were for the wrong meal category, and (3) exceeded the
able to include contract terms that favored them               maximum number of meals possible based on
because FNS did not mandate specific contract terms            enrollment multiplied by the number of days in the
and provisions.                                                month. FNS officials agreed corrective action was
                                                               warranted based on the conditions we identified.
In addition, although school food authorities were
required to maintain oversight of management company           Strengthened Controls Over Applicant Eligibility
operations, we found that 16 of the 24 we visited did not      and Meal Counts Needed To Ensure School
have adequate controls in place to ensure accurate             District’s Entitlement to School Lunch Program
meal claims or to prevent the companies from being             Funds
reimbursed for nonprogram costs. The meal
accountability systems claimed meals inaccurately and          As part of our ongoing reviews, we evaluated the New
reimbursed school food authorities for almost 84,000           York City school district’s meal accountability system
unsupported meals. School food authorities also                and management controls that were designed to
improperly used $1.2 million in National School Lunch          provide reasonable assurance as to the accuracy of its
Program (NSLP) funds to reimburse three management             meal claims at over 1,460 schools that were reimbursed
companies for unallowable nonprogram costs.                    about $204 million in NSLP funds for school year 1998/
                                                               1999. We observed over 23,000 meals served at
We recommended that the FNS regional offices require           35 schools and analyzed 6,673 monthly meal claims.
the State agencies to collect the $5.8 million for USDA-       The school district had not implemented controls, or
donated commodities and the $280,000 in discounts              controls were ineffective in preventing invalid payments.
and rebates from the management companies. FNS                 We identified the following material control weaknesses.
also needs to establish specific requirements for
appropriate contract terms for States and school food          • The school district’s eligibility verification process did
authorities to follow to ensure that they, not the               not provide reasonable assurance that children
management companies, benefit from the value of                  served meals were correctly classified as eligible for
USDA-donated commodities, purchase discounts, and                free or reduced-price meals because it did not take
rebates. FNS generally agreed with our findings, has             prudent corrective actions when a large error rate
implemented some of the corrective actions, and has              was disclosed. About 55 percent of the applications
indicated that it will continue to pursue restitution of the     sampled had to be reclassified either because the
school food authorities’ accounts for the value of USDA-         household did not respond or the household
donated commodities, purchase discounts, and rebates.            response disclosed that the original classification was
                                                                 in error. The error rate has continued to climb. The
Additional Database Analysis of Large CACFP                      school district’s verification process identified a
Sponsors Would Improve Integrity of Program                      59.5 percent error rate for school year 1999/2000, a
                                                                 65.1 percent error rate for school year 2000/2001,
We performed a database analysis for six large Child             and a 69.5 percent error rate for school year 2001/
and Adult Care Food Program (CACFP) sponsors. Our                2002.

10
• For those applications found to be in error during the      Viagra. Twelve have pled guilty; two have been found
  eligibility verification process, the school district did   guilty at trial and were sentenced to 57 months’
  not establish controls to ensure the applications were      imprisonment and 78 months’ imprisonment. Assets
  corrected at the school level. We identified 17             totaling approximately $2.1 million were seized from the
  schools that did not correct the applications and           bank accounts of these subjects. These assets and an
  adjust meal claims. As a result, the school district        additional $800,000 were later criminally indicted in the
  received excess reimbursement of about $19,000.             Government’s action against this property. This
                                                              investigation was conducted jointly with the Ohio
• The school district did not perform the required            Organized Crime Investigations Commission, the FBI,
  average daily attendance to daily meal count edit           and the Food and Drug Administration.
  check to provide reasonable assurance that each
  school was not claiming more meals served than              Four Individuals Sentenced in WIC Scam
  children in attendance. A computer analysis of 6,673
  monthly claims found that, in 1,647 claims, the             Four people were indicted by a Federal grand jury in
  schools claimed over 590,000 meals served in                Atlanta on charges of conspiracy to defraud the WIC
  excess of children in attendance. As a result, the          Program and theft of Government funds. During an 18-
  school district received excess reimbursement of at         month period, 9,391 WIC vouchers, valued at $268,237,
  least $982,000 and obtained excess USDA-donated             were stolen from an Atlanta clinic by an employee and
  foods valued at about $87,000.                              then sold by another indidivual to the owners of a local
                                                              grocery store. All four pled guilty and have been
• The school district did not assign sufficient resources     sentenced to terms ranging from 4 months’ home
  to timely or effectively monitor its over 1,460 schools’    detention followed by probation to 21 months in prison.
  meal counting and claiming systems, resulting in the        They were also ordered to make full restitution, which
  cited overclaims. Further, at only 21 of 94 schools         the store owners did prior to sentencing.
  surveyed were the applications used as a basis for
  calculating NSLP reimbursement retained for the
  required period to support the meal claims.

We made a series of recommendations to address
these control weaknesses. If the school district does not
take timely action to implement management controls
over the eligibility verification process, FNS should
consider withholding administrative funding.


 SPECIAL SUPPLEMENTAL NUTRITION
 PROGRAM FOR WOMEN, INFANTS, AND
 CHILDREN


Participants in Stolen Baby Formula Scheme
Prosecuted

Two reputed organized crime families in Cincinnati and
Columbus, Ohio, were found to be conspiring to traffic
food stamps and purchase large quantities of stolen
WIC program infant formula and other stolen
merchandise, much of which was then transported to
warehouses in Lexington, Kentucky. A total of 17
individuals have been indicted on charges ranging from
racketeering and food stamp trafficking to money
laundering and trafficking in the prescription drug


                                                                                                                     11
Program Integrity Investigations


In addition to the cases highlighted in previous sections,   no money had exchanged hands and no equipment had
OIG agents, as always, have been working on a wide           been purchased. The businessman used about half of
variety of investigations affecting the entire gamut of      the $5 million loan to have the plant built and used the
USDA programs. A few of those cases follow.                  other half for his personal use. Both the businessman
                                                             and equipment broker entered guilty pleas to conspiracy
Former FSA State Committeeman and Brother                    charges. The broker was sentenced to 32 months in
Sentenced for Making False Statements to FSA                 prison and 3 years’ supervised release, and ordered to
                                                             pay $7,500 in resitution. The businessman is awaiting
A former Mississippi FSA State Committeeman and his          sentencing.
brother were found guilty by a Federal jury for making
false statements to FSA to obtain 1998 cotton disaster       Major Virginia Dog Fighter and Associates
payments totaling more than $225,000. The brothers           Convicted
certified that they had planted the cotton within the FSA-
established planting period when, in fact, the planting      Three individuals were convicted for illegally promoting
occurred much later. The former chairman was                 and fighting dogs in Virginia and the Mid-Atlantic
sentenced to 18 months in prison and fined $20,000.          Region. The main promoter was sentenced to 30
His brother was sentenced to 12 months in prison and         months in Federal prison and received a $17,000 fine
fined $5,000.                                                for fighting dogs, as well as producing and selling
                                                             videotapes and a magazine on how to train and fight
New York Attorney Sentenced to Jail and Ordered              dogs. His associate was sentenced to 9 months in State
To Pay $864,500 in Restitution                               prison and given a $3,000 fine. He had 70 dogs he was
                                                             training at the time a search warrant was served on his
A Long Island, New York, attorney was sentenced to 2         property. A third individual was sentenced to probation
years 9 months in Federal prison and ordered to pay          and received a $2,000 fine for fostering the illegal
$864,500 in restitution for wire fraud. A Rural              activity. Multiple search warrants served in this case by
Development loan applicant had retained the attorney to      OIG special agents and State and local police agencies
close a single-family housing loan in Riverhead, New         also resulted in the seizure of records; training
York. When the purchase of the property did not occur        equipment, such as tread mills; many legal and illegal
as scheduled, RD instructed the attorney to return the       drugs for treating the dogs; and a bloody fighting pit.
$147,050 that had been transferred to his escrow             This investigation was worked with the Franklin County
account. The attorney instead transferred the USDA           Sheriff’s Department, the Virginia State Police, the
funds overseas via wire to a fraudulent investment           Franklin County Department of Public Safety and
scheme operating out of Lagos, Nigeria, along with           Animal Control, the Pittsylvania County Sheriff’s
$717,450 in funds he stole from the estates of several       Department, the Humane Society of the United States,
clients and obtained from victims he had convinced to        and the Virginia Department of Forestry.
participate. This investigation was worked jointly with
the FBI.

Georgia Businessman and Equipment Broker Plead
Guilty to $5 Million B&I Loan Fraud Scheme

A Federal grand jury returned a 31-count superseding
indictment against a Georgia businessman for his role in
a fraudulent scheme to obtain a $5 million USDA RD
Business and Industry (B&I) guaranteed loan for a
catfish processing plant in a poverty-stricken rural
Georgia county. He was given the loan after he               A dog used for fighting, and training treadmills utilized to increase dog
fraudulently claimed to have purchased $2,950,000 in         endurance. OIG photos.
processing equipment for collateral for the loan. He and
an equipment broker signed affidavits falsely certifying
that he had given the money to the broker when, in fact,



12
Financial Management and Accountability


                                                            annual plans include specific verification and validation
 GOVERNMENT PERFORMANCE AND
                                                            methods that will ensure the accuracy of performance
 RESULTS ACT
                                                            results, and that those methods be fully implemented.

Implementation of GPRA in FSA                               FSA officials agreed with the recommendations and
                                                            have initiated corrective actions. FSA stated that it is
In 1993, Congress passed, and the President signed          continuing efforts to improve the development of
into law, the Government Performance and Results Act        performance information that is more outcome-oriented.
(GPRA). In response to a congressional request, we          It has added three recently developed outcome-oriented
initiated an ongoing examination of agencies’ activities    performance measures to the FY 2003 annual
pursuant to GPRA. This period, we concluded an audit        performance plan. The FY 2004 annual performance
of GPRA in FSA. We found that some improvements             plan guidance will include requirements to document
were needed.                                                internal control methodologies. This guidance will also
                                                            include specific instructions for preparing the verification
For example, we found errors in the results reported in     and validation sections of the annual performance plan.
the Annual Program Performance Report (annual
report) for 3 of 21 performance measures. Further, 18 of
                                                             FINANCIAL-RELATED AUDITS
the 21 performance measures were output-oriented
(expressed in terms of a quantitative result) rather than
outcome-oriented (expressed in terms of a                   Audit of Selected FFIS Operations
programmatic result), and the results reported did not
indicate the degree to which long-term goals were being     The Foundation Financial Information System (FFIS) is
met.                                                        a highly significant and much needed undertaking by
                                                            the Office of the Chief Financial Officer (OCFO) and
The results FSA reported for these 18 measures would        USDA, prompted by the longstanding financial
not permit readers of the annual report to gauge the        management problems OIG has reported over the last
impact of its programs’ products or services. FSA was       10 years. As of October 1, 2001, FFIS had been
making efforts to develop outcome-oriented                  implemented for approximately 98 percent of the
performance measures to replace 4 of the                    Department. FFIS will provide the Department with a
18 performance measures but had not completed               materially strengthened accounting system,
development of reporting systems that would provide         strengthened financial controls, and better financial
accurate and supportable results at the time of our         reporting. When coupled with other financial
review.                                                     management improvements planned or underway by
                                                            OCFO, the Department’s overall financial management
FSA had not implemented controls or developed written       system should be substantially improved.
procedures over some of the activities related to the
reporting of performance results. Therefore, FSA            We tested access and document processing controls,
reported data on loans that did not match the               funds control, and the audit trail processes for each
description of the data in its annual plan and annual       agency participating in FFIS as of October 1, 2002, and
report. As a result, FSA reported some performance          found that accounting policies and internal control
results that did not reflect its actual accomplishments.    procedures, established by each agency, frequently did
                                                            not adhere to the OCFO guidance or other authoritative
We recommended that FSA develop performance                 sources. In our opinion, the weaknesses we found, in
measures that are outcome-oriented, linked to the           aggregate, constitute a material internal control
achievement of its long-term goals, and for which           weakness. Examples follow.
results reported would indicate the degree to which the
long-term goals are being met. FSA also needed to           • The corporate-level control and processing structure,
ensure that written procedures were established and           established by OCFO for the agencies to follow,
implemented, including internal controls over the             needed to be expanded, and agencies frequently
collection, calculation, and reporting of performance         were not following OCFO’s guidance.
data. We also recommended that FSA ensure that



                                                                                                                     13
• Departmental agencies had not adequately limited         that potentially should be considered material may go
  access granted to users, appropriately segregated        unreported, and the existence of additional material
  duties, or sufficiently controlled changes to “feeder”   internal control weaknesses may not be detected.
  system documents.
                                                           The Department had not established clear instructions
• There were five types of FFIS payment documents          for determining whether an identified weakness was
  where agencies did not require “approvals” before        sufficiently material to be included in its FMFIA report.
  the payment was processed, as required by OCFO           This condition was caused primarily by an absence of
  guidance.                                                quantitative criteria set forth by OCFO in its regulations,
                                                           something agencies need in order to classify or
• Budgetary controls, inherent in the FFIS system,         describe a weakness as being material. OCFO
  were not implemented or were implemented                 incorporated a very broad definition of material
  inconsistently by the agencies.                          weakness, put forth by OMB, without adding
                                                           supplemental criteria. As a result, USDA agencies may
• Agencies implemented internal control settings and       not be considering dollar impact in determining whether
  edits inconsistently and/or did not comply with OCFO     to report weaknesses as material. For example, the
  requirements. For example, the interest rate applied     Rural Housing Service identified a weakness internally
  to overdue receivables varied from 5 percent to 6.375    which estimated that the cost of repairs to its Multi-
  percent among eight agencies reviewed; the correct       Family Housing portfolio was underfunded by about
  rate was 6 percent.                                      $850 million. This weakness, however, was not reported
                                                           by the agency because it was deemed to be immaterial.
We recommended that OCFO require agencies to
obtain training on internal control processes and to       We recommended that the Department develop and
immediately eliminate unauthorized or unnecessary          implement a definition of a material weakness that
accesses to FFIS, including users who are no longer        contains quantitative characteristics and properly
USDA employees. Agencies also should be required to        reflects the relative risk and significance of deficiencies.
fully use the controls available in FFIS, including        OCFO did not concur with the report’s
establishing full control for all appropriated funds and   recommendations, stating that “management’s opinion,
setting budgetary spending limits on all appropriated      based on their experience, is adequate to ensure
funds. OCFO agreed with all findings and                   material deficiencies are disclosed….” OIG’s opinion is
recommendations and has begun corrective action.           that USDA agencies have internally generated very few
                                                           reportable conditions, in part, because prescribed
USDA’S FMFIA Act Guidance Is Lacking                       quantitative criteria are absent. Relying on the
                                                           subjectivity inherent in management’s opinion results in
We performed a review of the Department’s Federal          lack of uniformity and, as can be discerned historically,
Managers’ Financial Integrity Act (FMFIA) reporting        minimal disclosures of what are, in fact, significant
requirements. Our objective was to assess the              deficiencies in the administration of programs and
adequacy of the Department’s guidance regarding what       operations of the Department.
constitutes a material internal control weakness and,
thus, warrants disclosure in the Department’s FMFIA
report to Congress.

Materiality is based on the concept that items of little
importance, which do not affect the judgment or conduct
of a reasonable user, do not require investigation. As
stated by the U.S. General Accounting Office,
“materiality has both quantitative and qualitative
aspects.” Pursuant to FMFIA, each agency is required
to review its system of internal controls and report any
material internal control weaknesses. Without viable
criteria, however, known internal control weaknesses



14
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         42
  Audits Performed by OIG ....................................................................................                33
  Evaluations Performed by OIG ...........................................................................                      1
  Audits Performed Under the Single Audit Act .....................................................                             4
  Audits Performed by Others ................................................................................                   4

Management Decisions Made
Number of Reports ............................................................................................................................................           35
Number of Recommendations ..........................................................................................................................                    247

Total Dollar Impact (Millions) .......................................................................................................................... $173.8
  Questioned/Unsupported Costs .......................................................................................... $29.5a,b
  Recommended for Recovery .............................................................................. $21.0
  Not Recommended for Recovery ........................................................................             $8.5
  Funds To Be Put to Better Use ............................................................................................ $144.3

a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.


    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      222
Cases Opened ...................................................................................................................................................        254
Cases Closed .....................................................................................................................................................      340
Cases Referred for Prosecution .........................................................................................................................                 99

Impact of Investigations
  Indictments ....................................................................................................................................................      255
  Convictions ....................................................................................................................................................      233a
  Searches ........................................................................................................................................................      73
  Arrests ...........................................................................................................................................................   472b

Total Dollar Impact (Millions) .......................................................................................................................... $30.7
 Recoveries/Collections ............................................................................................................ $ 3.4c
 Restitutions ............................................................................................................................. $14.6d
 Fines ....................................................................................................................................... $ 0.8e
 Claims Established .................................................................................................................. $ 8.4f
 Cost Avoidance ....................................................................................................................... $ 3.5g

Administrative Sanctions
  Employees .....................................................................................................................................................        48
  Businesses/Persons ......................................................................................................................................             363

a   Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
    the 233 convictions do not necessarily relate to the 255 indictments.
b
    Includes 300 Operation Talon arrests and 172 arrests not related to Operation Talon.
c
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
    Fines are court-ordered penalties.
f
    Claims established are agency demands for repayment of USDA benefits.
g   Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               15
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings that must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                          Amount With
                                                                                    Total Value             No Mgmt.
                                                                                    at Issuance             Decision
Agency             Date Issued                        Title of Report               (in dollars)           (in dollars)

CCC                   02/26/02                    1. FY 2001 CCC Financial               19,586                19,586
                                                     Statements (06401-4-KC)

FNS                   11/09/01                    2. Florida FSP (27004-3-At)       15,933,950            15,933,950

                      11/21/01                    3. CACFP – Wildwood, Inc.,        36,895,611            36,895,611
                                                     Phase II (27010-6-KC)

                      11/21/01                    4. CACFP – Oversight of                27,484                27,484
                                                     Sponsor (27010-8-KC)

                      01/14/02                    5. States’ Oversight of CACFP               0                        0
                                                     Sponsors (27002-14-Ch)

                      03/29/02                    6. NSLP – Chartwell’s Food           307,711                307,711
                                                     Service Management
                                                     Company (27601-13-KC)

FS                    11/14/01                    7. MATCOM – Contract Audit             66,899                66,899
                                                     (08017-10-KC)

Multi                 03/29/02                    8. Controls Over Accidental                 0                        0
                                                     and Clandestine Release
                                                     of Biohazards (50099-13-At)

RD                    03/20/02                    9. Compliance With FMFIA                    0                        0
                                                     Requirements (85401-4-Ch)

                      03/22/02                    10. KY Highland Empowerment            34,419                34,419
                                                      Zone (04801-10-At)

RMA                   03/15/02                    11. Monitoring of RMA’s                     0                        0
                                                      Implementation of Manual 14
                                                      (05099-14-KC)




16
 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but,
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

                                                                                                        Amount With
                                                                                    Total Value           No Mgmt.
                                                                                    at Issuance           Decision
Agency             Date Issued                       Title of Report                (in dollars)         (in dollars)

ARS                  02/08/99                    12. Audit of J.A. Jones               160,233              160,233
                                                     Management Services,
                                                     CY 1994 and 1995
                                                     (02017-4-AT)

CR                   09/30/98                    13. Evaluation of CR Efforts                 0                    0
                                                     To Reduce Complaints
                                                     Backlog (60801-1-Hq)

                     03/24/99                    14. Evaluation of CR Management              0                    0
                                                     of Settlement Agreements
                                                     (60801-2-Hq)

                     03/10/00                    15. Office of CR Management of               0                    0
                                                     Employment Complaints
                                                     (60801-3-Hq)

                     03/10/00                    16. Status of Implementation of              0                    0
                                                     Recommendations Made in
                                                     Prior Evaluations of Program
                                                     Complaints (60801-4-Hq)

CSREES               03/27/97                    17. Use of 4-H Program Funds -          5,633                     0
                                                     University of Illinois
                                                     (13011-1-Ch)

FNS                  03/22/00                    18. CACFP – National Initiative    319,279                        0
                                                     To Identify Problem Sponsors -
                                                     Wildwood (27010-3-KC)

                     05/11/01                    19. NSLP – Food Service             3,572,137            3,572,137
                                                     Management Companies
                                                     (27601-12-KC)*

                     09/06/01                    20. NSLP – Food Service             3,537,912            3,198,926
                                                     Management Companies,
                                                     MWR (27601-24-Ch)*


                                                                                                                       17
                                                                            Amount With
                                                           Total Value        No Mgmt.
                                                           at Issuance        Decision
Agency   Date Issued       Title of Report                 (in dollars)      (in dollars)

FS         03/31/97    21. Research Cooperative and     468,547                468,547
                           Cost Reimbursable Agreements
                           (08601-18-SF)

           09/24/98    22. Assistance Agreements to         7,098,026                0
                           Nonprofit Organizations
                           (08601-2-Te)*

           05/04/01    23. FY 2000 FS Financial     1,305,600,000         1,305,600,000
                           Statements (08401-11-At)

           05/29/01    24. Northeastern Research            2,388,107                0
                           Station Accounting for
                           Timber Sales
                           (08007-1-At)

FSA        09/28/95    25. Disaster Assistance         1,805,828             1,672,929
                           Payments,
                           Lauderdale, TN (03006-4-At)

           05/02/96    26. Disaster Assistance              2,177,640        2,145,533
                           Program–1994,
                           Thomas County, GA
                           (03006-13-At)*

           03/30/99    27. Payment Limitation - Mitchell      881,924          881,924
                           County, Georgia
                           (03006-20-At)

           08/22/00    28. LaFlore County FSA                 228,764          228,764
                           Office Disaster Programs
                           (03006-20-Te)*

           05/24/01    29. FSA Payment Limitations                   0               0
                           Majority Stockholders of
                           Corporations (03099-27-Te)

           07/30/01    30. 1999 Crop Disaster Program         950,891          950,891
                           (03099-42-KC)

FSIS       06/21/00    31. Implementation of the Hazard              0               0
                           Analysis and Critical Control
                           Point System (24001-3-At)

           06/21/00    32. Imported Meat and Poultry                 0               0
                           Inspection Process (24099-3-Hy)



18
                                                                       Amount With
                                                        Total Value      No Mgmt.
                                                        at Issuance      Decision
Agency   Date Issued       Title of Report              (in dollars)    (in dollars)

Multi      09/30/98    33. CSREES Managing                3,824,211     2,651,292
                           Facilities Construction Grants
                           (50601-5-At)

           03/31/99    34. Private Voluntary           18,629,558      18,501,064
                           Organization Accountability
                           (50801-6-At)

           09/28/00    35. Crop Loss Disaster           10,728,872       149,178
                           Assistance Program
                           (50801-3-KC)

OCIO       03/03/01    36. Security Over USDA IT                  0             0
                           Resources Needs Improvement
                           (50099-27-FM)

RBS        10/01/99    37. Business and Industry Loan -    595,511       595,511
                           Indiana Farms (34099-3-Ch)*

           09/12/01    38 Lender Servicing of B&I         2,365,060     2,365,060
                          Guaranteed Loan, State
                          of Arizona, Lender B
                          (34601-4-SF)

           01/28/02    39. Lender Servicing of Business 1,536,060       1,536,060
                           and Industry Guaranteed
                           Loans – Florida (34601-3-At)

RHS        01/08/99    40. RRH Program - Dujardin          195,694       195,694
                           Property Management, Inc.,
                           Everett, WA (04801-5-SF)*

           04/20/99    41. RRH Program - Owner/            346,685       346,685
                           Manager, Olympia, WA
                           (04801-6-SF)*

           05/25/00    42. RRH Nationwide Initiative,     4,922,879     4,919,579
                           in MO, St. Louis, MO
                           (04801-2-KC)

           12/18/00    43. RRH Program, Insurance
                           Expenses, Washington, D.C.      924,751       753,448
                           (04801-6-KC)

           09/28/01    44. RRH Program, Insurance          596,665       562,515
                           Expenses, Phase II
                           (04601-4-KC)


                                                                                    19
                                                                    Amount With
                                                     Total Value      No Mgmt.
                                                     at Issuance      Decision
Agency   Date Issued      Title of Report            (in dollars)    (in dollars)

RMA        09/30/97    45. Crop Insurance on Fresh   15,082,744              0
                           Market Tomatoes
                           (05099-1-At)

           12/16/98    46. Crop Insurance on          3,963,468              0
                           Nurseries (05099-2-At)*

           02/28/01    47. FY 2000 FCIC Financial              0             0
                           Statements (05401-1-Hq)

           03/12/01    48. RMA/FCIC FY 2000
                           Financial Statements
                           Report on Management Issues         0             0
                           (05401-2-Hq)

           03/14/01    49. Crop Insurance for         2,254,014      2,254,014
                           Specialty Crops
                           (05601-4-At)

           05/21/01    50. Review of Written          1,565,730      1,565,730
                           Agreements (05002-1-Te)

           08/17/01    51. Risk Management Agency     1,506,620      1,506,620
                           Watermelon Claims in South
                           Texas (05601-7-Te)




20
 Audits Without Management Decision - Narrative for New Entries




1. Commodity Credit Corporation (CCC) – FY 2001               4. CACFP – Oversight of Sponsor, Issued
   Financial Statements, Issued February 26, 2002                November 21, 2001

We issued an unqualified opinion on CCC’s Financial           The recommendations for this report are still open. In
Statements. However, as in prior years, we continued to       order to achieve management decision, we need to be
find significant errors in CCC’s accounting records for its   informed of the timeframes for corrective actions and
foreign loan and domestic accounting operations. As a         provided information on the specific actions to be taken,
result, transactions are not properly recorded,               along with billings on the unauthorized costs. The FNS
processed, and summarized to permit the preparation of        regional office gave the State agency additional time to
reliable financial statements without numerous and            reply to the report due to appeals and court orders.
substantial adjustments. We recommended that CCC
(1) make improvements to its accounting and reporting         5. States’ Oversight of CACFP Sponsors, Issued
systems, (2) improve the timeliness and accuracy of its          January 14, 2002
financial information, and (3) strengthen supervisory
management over financial account reconciliation,             Management decisions have not been reached on 4 of
accounting entries, and adjustments. We continue to           11 recommendations. We are working with FNS to
work with CCC to resolve these issues.                        resolve one recommendation dealing with the
                                                              identification of subrecipients whose total Federal
2. Florida Food Stamp Program, Issued November                funding reaches the threshold that would require an
   9, 2001                                                    audit in accordance with OMB Circular A-133. In order
                                                              to resolve a second recommendation, we are awaiting
The audit identified about 128,700 unworked food              the completion of an FNS financial review at one State
stamp claims with an estimated value of $14.7 million.        agency that included an evaluation of FY 1999
The State had agreed to a plan to reduce the backlog          administrative audit fund expenditures that was
by June 30, 2002, or face fiscal sanction actions. FNS        scheduled to be performed by September 30, 2002. We
scheduled an onsite review to begin July 28, 2002, to         expect to reach management decision on the remaining
validate that the State has met target reduction goals        two recommendations in the near future when we
and assigned sufficient resources to the effort. We are       receive clarification of actions FNS has initiated.
awaiting the results of the FNS review findings and
determination of whether sanction actions will be             6. National School Lunch Program – Chartwell’s
pursued.                                                         Food Service Management Company, Issued
                                                                 March 29, 2002
3. CACFP – Wildwood, Inc., Phase II, Issued
   November 21, 2001                                          Two recommendations remain open in this report. For
                                                              Recommendation No. 1, clearance must be obtained
The recommendations for this report are still open. In        from OIG before action can be taken. For
order to achieve management decision, we need to be           Recommendation No. 2, Chartwell’s should be required
informed of the timeframes for corrective actions, and        to begin crediting school food authorities (SFA) with the
provided information on the specific actions to be taken,     dollar amount of commodities used during the 2002
along with billings on the unauthorized costs. The FNS        school year. If that has not been done, then any
regional office gave the State agency additional time to      recovery of amounts that should have been credited
reply to the report due to appeals and court orders.          should be cleared with OIG. Also, the State agency is to
                                                              ensure that the bid process and contracts are
                                                              developed so that SFAs receive credit for USDA-
                                                              donated commodities and revise the checklist provided
                                                              to SFAs to include the contract language needed.


                                                                                                                     21
7. MATCOM Contract Audit, Issued November 14,                percent) material internal control weaknesses identified
   2001                                                      in Section 2 of the FMFIA report. We recommended that
                                                             RD develop clear and comprehensive control objectives
The report has one recommendation requiring the              and techniques, and establish risk level assessments
contracting officer to resolve the questioned costs. After   for individual control objectives in order to adequately
issuance of the report, and as a part of the management      monitor the effectiveness of its programs and identify
decision process, the Defense Contract Audit Agency          nationwide trends. We are working with RD to achieve
(DCAA) informed us that an additional audit of a             management decision.
company purchased by MATCOM was necessary to
determine the amount of the questioned costs, because        10. RD – The Kentucky Highland Empowerment
the USDA contracts covered several years. This needed            Zone - Issued March 22, 2002
audit is scheduled to be performed sometime in FY
2003. We are working with DCAA and the contracting           We recommended that the Clinton County
officer to obtain the required information.                  Empowerment Zone Community, Inc. (CCEZCI), collect
                                                             $34,418.92 from a former board member. The board
8. Controls Over Accidental and Clandestine                  member had improperly authorized the disbursement of
   Release of Biohazards, Issued March 29, 2002              funds without the approval of other board members and
                                                             had diverted funds for his personal use.
We found that security of biological agents at USDA
laboratories was inconsistent and generally in need of       11. Monitoring of RMA’s Implementation of Manual
improvement. The Department had issued no policies               14 Reviews/Quality Control (QC) Review
and procedures for agencies to implement to manage               System, Issued March 15, 2002
security at the laboratories and to centralize control of
field unit practices involving the use and storage of        We recommended that the RMA Administrator seek
biological agents. To reach management decision, the         legislation to mandate a QC review system to evaluate
agencies need to put forth a determined effort to            private sector delivery of the Federal Crop Insurance
improve communications with their laboratories and to        Program, implement basic program policy decisions to
implement the Department’s new policies and                  include meaningful performance measures, and develop
procedures. We also concluded that more needed to be         a long-term QC plan of action. We also recommended
done in several key areas. The most prominent area is        that RMA define and describe its QC system
a centralized database. Such a database is critical to       authoritatively by regulation and report the absence of a
Department-level management of biological agents, and        reliable system as a material internal control weakness
we urge the agencies to finish consolidating their           under FMFIA. RMA believes that a legislative process is
inventories at the agency and Department levels. We          lengthy and time-consuming and has proposed to award
also need all agencies to adhere to the doctrines of the     a contract to study its delivery process and the
task force policies and implement those policies at all      underlying agreement. RMA also plans to study and
laboratories with biological agents, not just those          analyze its contractual agreements for program delivery,
classified as high risk.                                     which includes the QC system, and has indicated that
                                                             the new system will include goals and objectives to
9. Rural Development Compliance With FMFIA                   evaluate performance and measure results. RMA
   Requirements, Issued March 20, 2002                       agrees that improvements can be made to the current
                                                             system but disagrees with reporting its unreliability as a
We found that RD’s process did not ensure that all           material weakness. We maintain our opinion on that
material weaknesses would be identified and reported.        matter and continue to work with the agency to resolve
In the past 10 years, RD found only 3 of the 23 (13          the issue.




22
 Indictments and Convictions

Between April 1 and September 30, 2002, OIG                  Indictments and Convictions
completed 222 investigations. We referred 99 cases to        April 1 - September 30, 2002
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to       Agency              Indictments           Convictions*
255 indictments and 233 convictions. The period of time
to obtain court action on an indictment varies widely;       AMS                      0                      21
therefore, the 233 convictions do not necessarily relate     APHIS                   13                       6
to the 255 indictments. Fines, recoveries/collections,       ARS                      2                       1
restitutions, claims established, cost avoidance, and        CSREES                   0                       1
administrative penalties resulting from our investigations   FNS                    189                     153
totaled about $30.7 million.                                 FS                       4                       3
                                                             FSA                     22                      20
The following is a breakdown, by agency, of indictments      FSIS                     5                       6
and convictions for the reporting period.                    GIPSA                    0                       6
                                                             NRCS                     2                       1
                                                             OIG                      1                       1
                                                             RBS                      4                       0
                                                             RHS                      9                       8
                                                             RMA                      1                       5
                                                             RUS                      2                       0
                                                             SEC                      1                       1
                                                                                    ___                     ___
                                                             Totals                 255                     233

                                                             *This category includes pretrial diversions.




                                                                                                                      23
  Office of Inspector General Hotline

 The OIG Hotline serves as a national receiving point for
 reports from both employees and the general public of
 suspected incidents of fraud, waste, mismanagement,
 and abuse in USDA programs and operations. During
 this reporting period, the OIG Hotline received
 1,134 complaints, which included allegations of
 participant fraud, employee misconduct, and
 mismanagement, as well as opinions about USDA
 programs. Figure 1 displays the volume and type of the
 complaints we received, and figure 2 displays the
 disposition of those complaints.




 Figure 1                                                   Figure 2

 Hotline Complaints                                         Disposition of Complaints
 April 1 to September 30, 2002                              April 1 to September 30, 2002
 (Total = 1,134)
                                                                                    Referred to
                                                Bribery         Referred to       USDA Agencies
                                                   3          FNS for Tracking     for Response     Referred to
                       Participant                                  232                 526        State Agency
                         Fraud                                                                          82
                          617




    Waste/
                                               Health/
Mismanagement
                                  Opinion/     Safety         Referred to
     202      Employee          Information      19         USDA or Other                             Referred to
            Misconduct               91                      Agencies for Filed Without Referred to Other Law
                202
                                                             Information-    Referral-  OIG Audit or Enforcement
                                                            No Response Insufficient Investigations Agencies
                                                               Needed      Information for Review         5
                                                                 167            61          61




 24
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period April 1 to
 September 30, 2002


Number of FOIA/PA Requests Received                 175

Number of FOIA/PA Requests Processed:               185

  Number of Requests Granted in Full 58
  Number of Requests Granted in Part 47
  Number of Requests Not Granted     42

Reasons for Denial:

  No Records Available                   18
  Requests Denied in Full                11
  Referrals to Other Agencies            13

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                               65
  Processed                              61

Appeals Processed                                    7

  Appeals Completely Upheld               4
  Appeals Partially Reversed              3
  Appeals Completely Reversed             0

Number of OIG Reports/Documents                     114
Released in Response to Requests


NOTE: A request may involve more than one report.

During this 6-month period, 27 audit reports were
published on the Internet at the OIG Web site:
www.usda.gov/oig.




                                                                                             25
Appendix I


                                  INVENTORY OF AUDIT REPORTS ISSUED
                                   WITH QUESTIONED COSTS AND LOANS
                                BETWEEN APRIL 1 AND SEPTEMBER 30, 2002


                                                                         DOLLAR VALUES

                                                          QUESTIONED             UNSUPPORTEDa
                                              NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                        45      $152,787,146            $85,037,884
   DECISION HAD BEEN MADE
   BY APRIL 1, 2002

B. WHICH WERE ISSUED DURING                       13        33,800,577              1,359,545
   THIS REPORTING PERIOD

     TOTALS                                       58      $186,587,723            $86,397,429


C. FOR WHICH A MANAGEMENT                         15
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

     (1) DOLLAR VALUE OF
         DISALLOWED COSTS

        RECOMMENDED FOR RECOVERY                           $20,975,461

        NOT RECOMMENDED FOR RECOVERY                         8,487,723

     (2) DOLLAR VALUE OF                                     5,288,945             $2,350,965
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                        43       152,367,976             84,046,464
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

     REPORTS FOR WHICH NO                         32       126,863,237             82,686,919
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE

a
Unsupported values are included in questioned values.




26
Appendix II


                           INVENTORY OF AUDIT REPORTS ISSUED
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                         BETWEEN APRIL 1 AND SEPTEMBER 30, 2002


                                    NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT            14          $163,424,541
   DECISION HAD BEEN MADE
   BY APRIL 1, 2002

B. WHICH WERE ISSUED DURING            8            41,378,711
   THE REPORTING PERIOD

  TOTALS                              22          $204,803,252

C. FOR WHICH A MANAGEMENT              6
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

  (1) DOLLAR VALUE OF                             $144,258,882
      DISALLOWED COSTS

  (2) DOLLAR VALUE OF
      COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT            16            60,544,370
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

  REPORTS FOR WHICH NO                10            19,231,958
  MANAGEMENT DECISION WAS
  MADE WITHIN 6 MONTHS
  OF ISSUANCE




                                                                        27
Appendix III


                                  SUMMARY OF AUDIT REPORTS RELEASED
                                 BETWEEN APRIL 1 AND SEPTEMBER 30, 2002

DURING THE 6-MONTH PERIOD BETWEEN APRIL 1 AND SEPTEMBER 30, 2002, THE OFFICE OF INSPECTOR
GENERAL ISSUED 42 AUDIT REPORTS, INCLUDING 4 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                             QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS        COSTS          COSTS         PUT TO
AGENCY                                          RELEASED     AND LOANS      AND LOANS     BETTER USE

FARM SERVICE AGENCY                    4                      $4,943,782
RURAL HOUSING SERVICE                  1                         193,699                  $15,500,000
RISK MANAGEMENT AGENCY                 3                       7,033,115                   21,100,000
FOREST SERVICE                         2                                                    2,049,653
RURAL UTILITIES SERVICE                1                       2,940,838
NATURAL RESOURCES CONSERVATION
    SERVICE                            5                                                     580,000
COOPERATIVE STATE RESEARCH, EDUCATION, 1                       1,246,161       841,762
    AND EXTENSION SERVICE
OFFICE OF OPERATIONS                   1
FOOD SAFETY AND INSPECTION SERVICE     1
FOOD AND NUTRITION SERVICE             7                      10,185,258       517,783
ANIMAL AND PLANT HEALTH INSPECTION     1                       1,430,522                     268,950
    SERVICE
RURAL BUSINESS-COOPERATIVE SERVICE     2                       5,827,202
MULTIAGENCY                           10                                                    1,813,809
RURAL DEVELOPMENT                      3                                                       66,299

TOTALS                                              42       $33,800,577     $1,359,545   $41,378,711

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                               32
  MULTIAGENCY AUDIT                                  9
  SINGLE AGENCY EVALUATION                           0
  MULTIAGENCY EVALUATION                             1

TOTAL RELEASED NATIONWIDE                           42

TOTAL COMPLETED UNDER CONTRACTb                          4

TOTAL SINGLE AUDIT ISSUEDc                               4

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
 Indicates audits completed as Single Audit




28
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2002

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                            AND LOANS      AND LOANS    BETTER USE


FARM SERVICE AGENCY

 03-099-0004-SF   LIMITED CALIFORNIA COOPERATIVE INSOLVENCY             $304,398
 2002/08/26       PAYMENT PROGRAM - TRI VALLEY GROWERS
 03-099-0005-SF   CROP DISASTER PROGRAM PAYMENTS TO PEACH                $55,587
 2002/08/29       GROWERS SUTTER/YUBA COUNTY, CA
 03-099-0050-KC   QUALITY LOSS PROGRAMS
 2002/04/02
 03-099-0164-AT   ASSESSMENTS ON IMPORTED TOBACCO                     $4,583,797
 2002/09/30

   TOTAL: FARM SERVICE AGENCY                                    4    $4,943,782

RURAL HOUSING SERVICE

 04-601-0005-KC RURAL RENTAL HOUSING PROGRAM                            $193,699                  $15,500,000
 2002/08/08     SERVICING OF INSURANCE EXPENSES

   TOTAL: RURAL HOUSING SERVICE                                  1      $193,699                  $15,500,000

RISK MANAGEMENT AGENCY

 05-099-0010-SF   INDEMNITY PAYMENTS TO PEACH GROWERS IN                 $34,336
 2002/08/26       CALIFORNIA
 05-601-0008-TE   VIABILITY OF 1999 FALL WATERMELON CROP                                          $21,100,000
 2002/09/30       INSURANCE IN TEXAS
 05-601-0009-TE   REVIEW OF LARGE INSURANCE CLAIM FOR                 $6,998,779
 2002/09/30       WATERMELONS

   TOTAL: RISK MANAGEMENT AGENCY                                 3    $7,033,115                  $21,100,000

FOREST SERVICE

 08-017-0004-HY KAJAX ENGINEERING, INC.,
 2002/08/30     INCURRED COST - FISCAL YEARS 1998 & 1999
 08-017-0011-KC OMNI DEVELOPMENT CORPORATION - CONTRACT                                            $2,049,653
 2002/07/17

   TOTAL: FOREST SERVICE                                         2                                 $2,049,653

RURAL UTILITIES SERVICE

 09-001-0001-HQ SALE OF CAPITAL ASSETS BY RUS                         $2,940,838
 2002/09/27     COOPERATIVES

   TOTAL: RURAL UTILITIES SERVICE                                1    $2,940,838

NATURAL RESOURCES CONSERVATION SERVICE

 10-017-0003-HY   KAJAX ENGINEERING, INC.,
 2002/08/30       INCURRED COST - FISCAL YEARS 1998 AND 1999
 10-099-0008-KC   COMPLIANCE WITH HIGHLY ERODIBLE LAND
 2002/09/10       PROVISIONS
 10-099-0009-KC   EFFECTIVENESS OF STATUS REVIEW PROCESS IN
 2002/08/08       KANSAS
 10-601-0005-TE   SURVEY OF FARMLAND PROTECTION PROGRAM-REPORT                                      $580,000
 2002/08/05
 10-601-0006-TE   CONTROLS OVER FUNDS CONGRESSIONALLY
 2002/09/24       EARMARKED FOR CONSERVATION PROJECTS

   TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                 5                                  $580,000




                                                                                                           29
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2002

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                            AND LOANS      AND LOANS    BETTER USE

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE

 13-099-0002-TE GRANTS TO NATIONAL CENTER FOR RESOURCES               $1,246,161     $841,762
 2002/08/06     INNOVATIONS

     TOTAL: COOPERATIVE STATE RESEARCH,                         1     $1,246,161     $841,762
                EDUCATION AND EXTENSION SERVICE

OFFICE OF OPERATIONS

 23-099-0002-FM SECURITY OF INFORMATION TECHNOLOGY RESOURCES
 2002/05/22     AT USDA DEPARTMENTAL ADMINISTRATION

     TOTAL: OFFICE OF OPERATIONS                                1

FOOD SAFETY AND INSPECTION SERVICE

 24-099-0004-AT OVERTIME CONTROLS
 2002/09/30

     TOTAL: FOOD SAFETY AND INSPECTION SERVICE                  1

FOOD AND NUTRITION SERVICE

 27-010-0007-KC   PHASE II, ANALYSIS OF LARGE CACFP SPONSORS
 2002/04/23
 27-010-0028-HY   NATIONAL SCHOOL LUNCH PROGRAM OPERATIONS IN         $1,088,403
 2002/09/30       NEW YORK CITY
 27-099-0011-TE   ARKANSAS EBT SYSTEM DEVELOPMENT
 2002/09/24
 27-099-0018-SF   FOOD STAMP PROGRAM ADMINISTRATIVE COSTS -           $9,096,855     $517,783
 2002/07/03       CALIFORNIA
 27-099-0019-SF   FOOD STAMP PROGRAM ADMINISTRATIVE COSTS -
 2002/07/24       ARIZONA
 27-099-0023-CH   CONTINUED MONITORING OF EBT SYSTEM
 2002/08/21       DEVELOPMENT FISCAL YEAR 2002 - MICHIGAN
 27-601-0027-CH   NSLP - FOOD SERVICE MANAGEMENT COMPANIES
 2002/04/30

     TOTAL: FOOD AND NUTRITION SERVICE                          7    $10,185,258     $517,783

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

 33-099-0002-AT APHIS CITRUS CANKER MONITORING EFFORTS -              $1,430,522                    $268,950
 2002/08/08     SOUTH FLORIDA

     TOTAL: ANIMAL AND PLANT HEALTH                             1     $1,430,522                    $268,950
                 INSPECTION SERVICE

RURAL BUSINESS-COOPERATIVE SERVICE

 34-601-0006-SF BUSINESS AND INDUSTRY DIRECT LOAN PROGRAM -           $5,355,000
                HAWAII
 34-601-0014-TE BUSINESS AND INDUSTRY DIRECT LOAN PROGRAM -             $472,202
 2002/09/27     ARKANSAS

     TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                  2     $5,827,202




30
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2002

                                                                          QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                                COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                                 AND LOANS      AND LOANS    BETTER USE


MULTIAGENCY

 50-021-0001-CH   SINGLE AUDIT OF THE ILLINOIS
 2002/08/13       DEPARTMENT OF AGRICULTURE
 50-021-0002-CH   SINGLE AUDIT OF THE MICHIGAN
 2002/07/03       DEPARTMENT OF AGRICULTURE
 50-022-0005-HY   PUERTO RICO DEPARTMENT OF AGRICULTURE, A-133,
 2002/08/02       SFYE JUNE 30, 1997
 50-022-0006-HY   PUERTO RICO DEPARTMENT OF AGRICULTURE, A-133,
 2002/08/02       SFYE JUNE 30, 1998
 50-099-0005-HQ   REVIEW OF POLICIES AND PROCEDURES FOR NEW
 2002/06/27       OFFICES AND FACILITIES
 50-099-0050-FM   FY 2002 USDA GOVERNMENT INFORMATION SECURITY
 2002/09/10       REFORM ACT REPORT
 50-401-0042-FM   AUDIT OF FFIS OPERATIONS
 2002/06/24
 50-601-0004-CH IMPLEMENTATION OF THE GOVERNMENT PERFORMANCE
                & RESULTS ACT IN THE FARM SERVICE AG FY 2000
 50-601-0004-HQ REVIEW OF USDA AGENCIES’ OFFICIAL WEBSITES
 2002/08/06     FOR SENSITIVE CONTENT
 50-801-0012-AT MANAGEMENT OF USDA HAZARDOUS WASTE MANAGEMENT                                           $1,813,809
 2002/09/09     FUNDS

   TOTAL: MULTIAGENCY                                                10                                 $1,813,809

RURAL DEVELOPMENT

 85-099-0002-FM   SECURITY OF INFORMATION TECHNOLOGY RESOURCES -
 2002/08/05       RURAL DEVELOPMENT
 85-401-0001-HY   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL                                            $39,249
 2002/04/26       STATEMENT AUDIT-NER ASSIST
 85-401-0005-CH   FISCAL YEAR 2001 RURAL DEVELOPMENT FINANCIAL                                            $27,050
 2002/04/19       STATEMENT AUDIT - FIELD CONFIRMATIONS, WISCONSIN

   TOTAL: RURAL DEVELOPMENT                                           3                                   $66,299


   TOTAL: RELEASE - NATIONWIDE                                       42   $33,800,577    $1,359,545    $41,378,711




                                                                                                                31
